                               SENSITIVE BUT UNCLASSIFIED





                   UNITED STATES DEPARTMENT OF STATE

               AND THE BROADCASTING BOARD OF GOVERNORS

                              OFFICE OF INSPECTOR GENERAL


ISP-I-14-07A                                   Office of Inspections                                     March 2014




                            Inspection of

                      Embassy Manama, Bahrain





IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED


                   PURPOSE, SCOPE, AND METHODOLOGY

                          OF THE INSPECTION


        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

        The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •	 Policy Implementation: whether policy goals and objectives are being effectively
      achieved; whether U.S. interests are being accurately and effectively represented; and
      whether all elements of an office or mission are being adequately coordinated.

   •	 Resource Management: whether resources are being used and managed with maximum
      efficiency, effectiveness, and economy and whether financial transactions and accounts
      are properly conducted, maintained, and reported.

   •	 Management Controls: whether the administration of activities and operations meets the
      requirements of applicable laws and regulations; whether internal management controls
      have been instituted to ensure quality of performance and reduce the likelihood of
      mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
      steps for detection, correction, and prevention have been taken.

METHODOLOGY

         In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                            PREFACE


        This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

        The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                               1

Context                                                                     2

Executive Direction                                                         3

Policy and Program Implementation                                           6

  Political/Economic Section Reporting and Analysis                         6

  Consular Affairs                                                          7

  Public Affairs Section                                                    9

Resource Management                                                        14

  Management Overview                                                      14

  Real Property                                                            15

  General Services                                                         17

  Facilities Management and Safety, Health, and Environmental Management   20

  Human Resources                                                          21

  Equal Employment Opportunity                                             25

  Financial Management                                                     25

  Information Management                                                   26

Quality of Life                                                            29

  Innovative Practice: Welcome Kit Hot Spots                               30

Management Controls                                                        31

  Procurement                                                              31

  Warehouse Operations                                                     31

  Locally Employed Staff Overtime                                          32

  Motor Pool                                                               32

  Personal Use of Government Vehicles                                      33

  Cafeteria Contract                                                       33

  Gifts                                                                    33

  Cashiering                                                               34

  Consular                                                                 34

List of Recommendations                                                    35

List of Informal Recommendations                                           40

Principal Officials                                                        42

Abbreviations                                                              43





                                     iii

                        SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Key Judgments

•	 The embassy has two competing policy priorities: to maintain strong bilateral military
   cooperation and to advance human rights. The Ambassador has forged strong relationships
   with U.S. military leaders based in Bahrain to promote common goals.

•	 The Ambassador’s failure to maintain a robust planning and review process has led to
   confusion and lack of focus among some staff members and sidelined economic/commercial
   activities and public diplomacy programs.

•	 The embassy has not developed a comprehensive strategy to improve the Ambassador’s
   negative media image. The Ambassador has agreed to increase his participation in
   noncontroversial programs and events with potential to generate positive publicity.

•	 Public affairs activities suffer from a lack of strategic planning.

•	 The mission produces well-sourced and timely political reporting. Economic reporting has
   been sparse. The embassy does not have a strategy to support the President’s National Export
   Initiative.

•	 Management controls processes are weak across the board, and the embassy should make
   resolving them a priority. The management officer has been given other duties that prevent
   him from giving his full time and energy to addressing these weaknesses. A lack of
   transparency in management policies exacerbates low morale.

•	 The embassy and the Department of State have not implemented local labor law provisions
   that went into effect in September 2012 and have not made a decision on a proposed 2011
   locally employed staff bonus.

•	 The front office does not give adequate attention to mentoring, especially first- and second-
   tour employees.

•	 The embassy’s innovative practice of providing mobile Internet routers in welcome kits
   makes the transition process for new employees more efficient.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need correction.

The inspection took place in Washington, DC, between September 3 and 23, 2013, and in
Manama, Bahrain, between September 25 and October 19, 2013. Ambassador Marianne Myles
(team leader), Michael Hurley (deputy team leader), Alison Barkley, Beatrice Camp, Roger
Cohen, David Davison, Shawn O’Reilly, Keith Powell II, Richard Sypher, Joyce Wong, and
Roman Zawada conducted the inspection.


                                         1
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Context 

        The Kingdom of Bahrain is a small archipelago located off the eastern coast of Saudi
Arabia, 150 miles across the Persian Gulf from Iran. Since the Arab Spring began in 2011, the
government, led by the ruling Sunni Al Khalifa family, has faced large and frequent
demonstrations calling for reform. These calls for change originate largely with the majority Shia
population but also address concerns shared by Sunni opposition groups. Some protests have
been violent, and the resulting government crackdowns have tarnished Bahrain’s business-
friendly image and reputation as a liberal Gulf country. Despite attempts to establish a national
dialogue between the government and opposition groups, progress has been limited. The country
remains divided along sectarian lines.

         Bahrain’s ongoing political crisis has forced the U.S. Government to strive for an
effective balance between military objectives, reform, and human rights. Bahrain is headquarters
for the U.S. Navy’s Fifth Fleet, allows the United States to use two major airfields, and has
backed U.S.-led military operations such as Desert Storm, Enduring Freedom, and Iraqi
Freedom. Foreign Military Sales to Bahrain currently total $1.4 billion a year, and close to 90
percent of Bahraini Defense Force equipment is of U.S. origin. In response to human rights
concerns, the U.S. Government has put some military sales on hold, to the displeasure of the
Government of Bahrain.

        Embassy Manama is a medium-sized mission with 80 U.S. direct hires, 23 U.S. local
hires and 85 locally employed (LE) staff members who oversee a $14 million budget and
manage 78 leased properties. The embassy building opened in 1991 and is nearing capacity.
Manama is one of the Middle East missions that allow families, and assignments there continue
to be 3-year tours. Continuing demonstrations and attacks against government and commercial
targets have severely restricted the movement of staff and taken a toll on their morale.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Executive Direction

        Embassy Manama faces significant challenges balancing U.S. military interests with U.S.
human rights policies. These issues dominate the agenda of the front office, political section, and
military components; this has led to an underuse of economic/commercial and public diplomacy
resources. The consular section is capably conducting its work. The management section requires
more oversight to correct weak procedures and controls. This report’s most significant
recommendations concern the need to improve planning, make better use of
economic/commercial and public diplomacy resources, and standardize management processes.

        The Ambassador has forged a strong relationship with the heads of U.S. Naval Forces
Central Command and U.S. Marine Forces Central Command to promote consistent U.S. policy
messaging. He is respected by many Bahraini officials and is well liked by mission staff.
However, his lack of access to some key government officials, his poor media image, and the
lack of an effective strategy to address these issues have created friction with principal officials
in Washington.

         The Ambassador has not focused sufficiently on planning processes and implementation
as a way to keep staff focused during turbulent times. His belief that reactive “seat of the pants”
leadership works best in Bahrain’s challenging environment has left staff members who do not
have access to him on a regular basis confused about mission goals. Disdain for planning has
trickled down to section heads, leaving most sections without the tools to make the best use of
their programs and resources. During the inspection, the Ambassador endorsed a new planning
effort launched by the deputy chief of mission (DCM) to create a broad-based plan of action for
all sections and agencies. The Ambassador needs to remain personally involved in this effort.

Recommendation 1: Embassy Manama should implement a planning effort that has broad
participation by mission staff and includes all sections’ programs. The effort should include
quarterly reviews. (Action: Embassy Manama)

         Lack of a clear commercial strategy has impeded the Ambassador’s focus on export
promotion. He should impart a vision to the economic/commercial section that will involve him
in business issues, including making greater use of the Free Trade Agreement. His team executed
a successful America Week program in 2012, focused in part on furthering U.S. business
interests, and planned multiple embassy activities for Global Entrepreneurship Week in
November 2013. With the recent revitalization of the local American Chamber of Commerce, the
Ambassador has the opportunity to give greater support to business programs.

        The Ambassador is intensely concerned about the security of mission employees, and
they noted this favorably in OIG questionnaires. Despite that focus, he undermined the
emergency action committee by allowing the former DCM to remain in a leased DCM residence
in an unsafe red zone when other staff members living there were required to move. This
decision required costly security measures to protect her and her family. When the new DCM
arrived and moved into a new DCM residence, the Ambassador encouraged him to continue
looking for yet another DCM residence, despite a 7-year lease and security upgrades that were



                                         3
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


already in place. The Ambassador’s practice of encouraging staff members to seek new housing
is contrary to Department of State (Department) standard operating procedures.

       The Ambassador has a well-received practice of walking around the embassy and
dropping in on sections. He converses with staff on a frequent basis in the chancery cafeteria and
at community functions. He holds “welcome breakfasts” at his own expense for newly arrived
U.S. employees. However, he rarely meets with mission members in formal settings, such as
town halls or LE staff committee meetings. There is a desire within the mission for greater
engagement by the Ambassador.

Recommendation 2: Embassy Manama should conduct separate town hall meetings at least
once a year with direct-hire staff, locally employed staff, and eligible family members. (Action:
Embassy Manama)

        The OIG team noted anomalies between the Ambassador’s calendar and his time and
attendance reports and brought them to his attention through a formal memorandum with an
itemized attachment. The OIG team noted that having elected a senior Foreign Service pay plan,
the Ambassador is required to account for all leave, as outlined in ALDAC 13 State 26982. The
Ambassador challenged two of the team’s assertions in the itemized attachment but declined to
discuss other discrepancies, especially personal time spent out of the office on workdays. The
issue merits further review, including examining time and attendance records and other
documentation.

Recommendation 3: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Human Resources and Embassy Manama, should address each time and attendance item cited in
the Office of Inspector General memorandum on the subject and refer unresolved discrepancies
to the Bureau of Human Resources for appropriate action. (Action: NEA, in coordination with
DGHR and Embassy Manama)

         The Ambassador has had a difficult time with the government-dominated media since his
arrival. Early in his tenure he wrote some broad policy articles for the newspapers and conducted
television interviews. Press reaction was negative and included personal criticism of him. Soon
after, the Ambassador reduced his press exposure. The Ambassador agreed to consider OIG team
suggestions that he increase his participation in noncontroversial events and programs as a way
to gain positive publicity and improve his public image, as well as the image of the United
States. He agreed to attempt blogging and to engage first- and second-tour (FAST) employees in
the effort. He also agreed to work with the public affairs staff to draw up a media plan, including
his engagement in cultural programs.

        The Ambassador chose not to engage with the OIG team in the exit brief process that is
the standard final part of a mission inspection. His decision deprived the embassy of the
opportunity to offer clarifications and raise questions directly with the OIG team.

        The DCM had been at the embassy for 6 months when the OIG team arrived. He has
experience in the region and has earned the Ambassador’s confidence. The Ambassador and the
DCM work well together and divide their work along traditional lines, with the Ambassador


                                        4
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


focused on outside networking and the DCM focused on internal management. The DCM has a
sufficient host country network and has served effectively as chargé d’affaires. The DCM meets
regularly with section and agency heads. However, he does not provide adequate support and
guidance to FAST employees, the LE staff committee, the community liaison office (CLO), or
eligible family member (EFM) employees. He also does not move about the embassy enough.
Several employees reported never seeing him outside his office. The DCM agreed to circulate in
the chancery more often.

        The DCM has not focused sufficiently on key management issues, including several that
affect morale. Lack of clarity in EFM hiring, LE staff hiring and promotions, and housing board
decisions have led to perceptions throughout the community of favoritism and unfairness. In
addition, the DCM supports allowing employees to move upon request, regardless of the reason,
as a way of boosting morale. This approach leads to waste and does not conform to 15 FAM
policies on housing.

         The DCM needs to devote more attention to the FAST mentoring program. His approach
has left the program largely without guidance. The DCM has not led an effort to establish a new
structure for the program, identify a FAST volunteer to chair the program, and meet regularly
with the group. The OIG team encouraged leadership and FAST employees to consider best
practices used by other embassies with strong FAST programs.

Recommendation 4: Embassy Manama should restructure the first- and second-tour officers
program to provide better professional development opportunities. (Action: Embassy Manama)

       The DCM has neglected some personnel duties, such as discussing performance
expectations with direct-hire employees for whom he is the rating or reviewing officer.




                                        5
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Policy and Program Implementation
Political/Economic Section Reporting and Analysis

         Embassy Manama has a combined political/economic section. The chief of the section is
also the chief of the political unit. The section’s deputy oversees the economic/commercial unit.
Both the section chief and deputy had been at the embassy for 3 months or less prior to the start
of the inspection. Since the advent of the Arab Spring in 2011, the Department has relied on the
section to supply frequent updates on political unrest in country, including violent protests in
February–March 2011 that led to the imposition of a 3-month period of martial law.

         The political unit has generated a steady stream of timely reporting on government
attempts to reach out to opposition groups through a “National Dialogue,” as well as on human
rights issues related to the protests. Washington consumers expressed appreciation for reporting
officers’ efforts to diversify their sources. Most of the 2013 cables that the OIG team reviewed
provided useful analysis.

        In contrast, the volume of economic reporting has been low, with approximately 1
economic cable for every 10 drafted by the political unit. The lack of front office attention to
economic matters has left the economic unit with little guidance on issues of potential interest to
Washington. The frequent diversion of the economic specialist’s attention to political issues,
while the political specialist performs backup protocol duties, has also hurt economic reporting.

Recommendation 5: Embassy Manama should implement a comprehensive reporting plan to
complement spot reporting with additional analytical economic and political reporting. (Action:
Embassy Manama)

        A few embassy sections expressed interest in greater collaboration among mission offices
that have reporting responsibilities. Such cooperation would enhance the quality of reporting and
increase staff’s understanding of other offices’ role in achieving U.S. policy objectives.

       Informal Recommendation 1: Embassy Manama should establish a working group
       comprising all embassy elements that have reporting responsibilities.

        For years, the section was able to hire and retain EFM administrative assistants with full
security clearances to meet office management requirements, which include janitorial escort,
making motor pool arrangements for official trips, delivering correspondence, and clerical
aspects of preparing diplomatic notes. EFMs are not always available, however, and the section
has faced gaps in administrative support. Office management tasks divert officers from their
primary functions.

Recommendation 6: Embassy Manama should determine the need for a U.S. direct-hire office
management specialist in the political/economic section. (Action: Embassy Manama)




                                        6
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Leahy Vetting

       Embassy Manama has two Leahy Vetting officers, both in the political/economic section.
Although only one of them has completed the Foreign Service Institute’s distance learning
course PP-410, INVEST: Leahy Vetting at Post, both are familiar with the vetting process and
know how to use the INVEST system. In 2012, the embassy vetted 308 individuals.

Commercial Advocacy

        Although the United States and Bahrain have a bilateral free trade agreement, the
Ambassador has made it clear that economic and commercial issues take a back seat to political
and defense-related matters on his list of priorities. The Ambassador does engage with
Government of Bahrain officials and local business leaders on behalf of U.S. businesses,
especially when there are specific advocacy issues, but otherwise leaves export promotion to the
economic/commercial unit. To support the President’s National Export Initiative to expand U.S.
exports, relevant embassy offices should be actively involved in the mission’s commercial
advocacy efforts.

Recommendation 7: Embassy Manama should establish an interagency strategy to expand U.S.
exports to Bahrain that is consistent with the National Export Initiative. (Action: Embassy
Manama)

Records Management

         The political/economic section has not maintained its electronic files properly. Officers
keep too many work products in individual computer files. While the section’s staff did not
previously use State Messaging and Archive Retrieval Toolset (SMART) to send or preserve
record emails, it started to do so after discussions with the OIG team. According to 5 FAM 433,
5 FAM 441, and 5 FAM 443, written material, including electronic mail, is to be organized as
official records by traffic analysis and geography terms and retired in accordance with the
appropriate records disposition schedule.

Recommendation 8: Embassy Manama should require the political/economic section to use a
standardized filing system in shared section files. (Action: Embassy Manama)

Consular Affairs

         The consular section is a small operation that provides a full range of consular services
effectively and efficiently. Staffing is appropriate to the workload. Relations between officers
and LE staff are good. All LE staff members have taken advantage of training opportunities in
the region or in Washington. The section has a good working relationship with and receives
appropriate support from the regional consular officer in Frankfurt.




                                         7
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Consular Management

          The section’s standard operating procedures are out of date and available only on a
shared computer drive. Even with only two full-time consular officers and a small local support
staff, it is important that internal processes be consistent, clearly understood, and readily
accessible. The procedures should be posted on the section’s SharePoint site.

Recommendation 9: Embassy Manama should update consular standard operating procedures
and post them on the consular SharePoint site. (Action: Embassy Manama)

        The consular section and applicant waiting areas are small but adequate. The section
conducts visa interviews and routine American services at different times of the day and week,
so the two groups of clients rarely interact.

        The workload in all consular functions was essentially flat from FY 2012 to FY 2013.
The section has proposed a renovation plan that would add interview space while addressing
some line-of-site and security/safety issues. The executive office of the Bureau of Consular
Affairs is reviewing the proposal.

Global Support Strategy

        In August 2013 Manama joined the global support strategy program, which provides
contracted consular services. The preparation and initial launch went smoothly. Interaction with
the service provider is good. The advent of remote fee collection, as well as appointment and
information services, has resulted in applicants spending less time waiting in the embassy.

American Citizens Services

        With some 7,000 resident Americans in Bahrain, the American citizen services unit deals
with a small volume of often-complex citizenship and emergency cases. The section is in the
process of revitalizing the embassy’s warden network. The section held its first warden
conference in 2012 but has not held a followup conference.

       Informal Recommendation 2: Embassy Manama should conduct warden meetings and
       training on an annual basis.

         There are no clear instructions on how or when embassy employees can secure American
citizen services for themselves. Embassy personnel who need passport or notarial services
generally come to the section personally or send an email to one of the consular officers. If the
office is too busy, the staff asks the person to come back later. This system is inefficient. The
OIG team suggested the embassy use its SharePoint site to post new instructions for employees
requiring American citizens services.

        The consular section works closely with the nearby Naval Support Activity, particularly
with regard to emergency notifications to the resident American community. Initial difficulties
regarding prompt notification issuance have been resolved. The section also works with a


                                        8
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


passport acceptance agent at the Naval Support Activity to provide passport services to U.S.
staff.

Visas

        After several years of 10–15 percent annual increases, the nearly 8,700 nonimmigrant
visa applications in FY 2013 reflected a modest increase from FY 2012. More than 40 percent of
applicants are third country nationals, most from other parts of the region, South Asia, and the
Philippines. There is a properly maintained referral program. In FY 2013, the immigrant visa
unit processed 97 applicants.

       Bahrain charges U.S. citizens $228 for a multiple-year visa. The United States charges
Bahrain citizens only $160. The embassy has not approached the Government of Bahrain to
address the lack of reciprocity.

Recommendation 10: Embassy Manama, in coordination with the Bureau of Consular Affairs,
should approach the Government of Bahrain to address lack of reciprocity in visa fees. (Action:
Embassy Manama, in coordination with CA)

Visas Viper

      The Visa Viper committee meets monthly. The consular chief prepares reports on time.
Twenty-two names were submitted in the past year.

Public Affairs Section

         The public affairs section has an experienced and dedicated staff conducting innovative
programming and responding to intense front office interest in media reporting. The section
manages programs, exchanges, and outreach to groups outside the traditional power structure,
including youth and women. Access English programs, Fulbright scholarships, and the
International Visitor Leadership Program are popular, despite some Government of Bahrain
roadblocks.

        Post public diplomacy programs would have greater impact if they were part of an overall
strategy that included greater participation by the Ambassador. The public affairs officer (PAO)
has not directed the section in establishing policies, defining goals, and prioritizing plans to achieve
mission objectives. Internal processes for dealing with grants, speakers, and exchanges are not
consistent, clearly understood, or readily accessible. The section posts only limited information
about its processes and activities on its SharePoint site.

Recommendation 11: Embassy Manama should implement a missionwide public affairs
strategy that clarifies key messages and priorities and integrates the Ambassador more closely
into the full range of public diplomacy activities. (Action: Embassy Manama)




                                          9
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Media Engagement

         Press and messaging duties have increased significantly since the political disturbances of
February 2011. The Department’s heightened focus on promoting human rights and greater
political inclusiveness requires around-the-clock updates and media analysis. In addition to
preparing a daily press summary for the Ambassador and other members of the embassy, the
public affairs section sends updates on social media, supplemented by reports from the
political/economic section.

       The PAO works closely with Washington to develop press guidance on internal political
developments in Bahrain. He coordinates with U.S. Naval Forces Central Command and the
Navy base to ensure consistent messaging and positive coverage of security cooperation.

       The public affairs section does not have a media plan but reacts to events as they happen.
The PAO and the Ambassador meet daily but would better achieve mission goals by working
from a comprehensive media plan.

Recommendation 12: Embassy Manama should establish a media plan to address mission
priorities. (Action: Embassy Manama)

        The government-controlled press is frequently highly critical of the Ambassador but the
embassy is cautious about using social media to counter this, concerned that doing so often
draws negative comments. The public affairs section posts the Ambassador’s public appearances
on Facebook but does not generally tweet his activities. The embassy does not use blogs.
Officers adept at social media can help use these tools to improve the Ambassador’s public
image and to correct misinformation about U.S. policies.

        The Information Resource Center director oversees social media sites, which include a
Web site, Facebook, YouTube and Twitter. Embassy Manama boosted its follower base last
spring through the Bureau of International Information Program’s “20/100” project, which
helped promote selected social media messages.

Recommendation 13: Embassy Manama, in coordination with the Bureau of International
Information Programs, should implement a broad-based social media plan. (Action: Embassy
Manama, in coordination with IIP)

Cultural and Educational Exchanges

         Public affairs programs reach audiences in culture, business, technology, and health.
Many are targeted at youth. A music camp for girls led to contacts with a new cohort of young
people. More than 6,000 Bahraini residents participated in the May 2012 America Week
activities. In an environment in which the government withholds approval for some programs,
the embassy branched out with events on diabetes, cartooning, and skateboarding. Speaker
programs featured an astronaut, the writers of the TV series “Mad Men,” and a women’s
basketball star.



                                       10
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


        The International Visitor Leadership Program sends approximately 20 participants to the
United States annually. Two exchange alumni are members of the National Assembly. In the
face of increased delays by the Government of Bahrain in approving participation of civil service
employees, the embassy has nominated more contacts from outside government. Despite
cooperation from other embassy sections, there is some friction due to a lack of clarity over each
section’s responsibilities, such as notifying nominees and debriefing returned travelers.

Recommendation 14: Embassy Manama should implement standard operating procedures to
help all sections understand their responsibilities in the International Visitor Leadership Program
process. (Action: Embassy Manama)

        The embassy’s educational adviser is also responsible for Fulbright programs; she spends
less than half her time on educational advising. Since 2011, the Government of Bahrain has
limited the embassy’s ability to reach high school and college students. The regional educational
advising coordinator, previously based in Morocco, gave considerable support to Manama’s
educational advisor, but the position is now vacant. The position is funded by the Bureau of
Educational and Cultural Affairs.

Recommendation 15: The Bureau of Educational and Cultural Affairs, in coordination with the
Bureau of Near Eastern Affairs, should fill the regional educational advising coordinator
vacancy. (Action: ECA, in coordination with NEA)

        The popular Fulbright Graduate Scholarship provides 2 years of graduate study in the
United States. More than 80 applicants apply each year, as it is one of the few scholarships
available for Bahrainis to study abroad. The Fulbright Language Teaching Assistant program,
which sends young foreign teachers to the United States to assist in teaching their own language
while taking English as a second language courses, drew only one candidate this year.

       Informal Recommendation 3: Embassy Manama should recruit more widely for the
       Fulbright Language Teaching Assistant program.

Grants Management

        The public affairs section works with multiple partners to extend the reach of its grants
program. In FY 2013, public affairs issued $271,000 in grants, including regional English
language office grants. All three direct-hire public affairs officers hold grants warrants. The
training that the LE specialist received in 2009 has expired. Although all public affairs grants are
under the $100,000 level required for certification, the grants specialist is responsible for
explaining terms and conditions of grants and should receive training and certification for that
role.

Recommendation 16: Embassy Manama should require the public affairs grants specialist to
complete grants management training courses offered by the Foreign Service Institute. (Action:
Embassy Manama)




                                        11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         Some grant files from FY 2012 and FY 2013 lack required receipts and contain minimal
final program reports. No standardized written guidance exists for pursuing missing interim and
final program reports. The public affairs section has placed several grantees on the excluded list
for failure to comply with grant agreements. Grants officers need to work with LE staff acting as
grants officer representatives to follow up after a grant has been awarded.

Recommendation 17: Embassy Manama should implement standard operating procedures for
followup with noncompliant grantees. (Action: Embassy Manama)

Section Management and Staffing

        With two U.S. direct hires, a Manama-based regional English language officer, and seven
LE staff, the size of the public affairs staff is appropriate. The embassy has received approval to
hire a social media/alumni coordinator. The OIG team examined position descriptions in the
section and noted that several need reviewing, including for the press specialist (position no.
100264), director of the Information Resource Center (position no. 100041), educational advisor
(position no. 100105), and program management specialist/media coordinator (position no.
100120).

Recommendation 18: Embassy Manama should update local employee position descriptions in
the public affairs section. (Action: Embassy Manama)

Information Resource Center and American Corners

        The Information Resource Center director is in charge of social media, information
dissemination, and two American Corners. The center’s former space, while still available for
public affairs use, is now a multipurpose room under the control of the management section.

         The American Corners at Isa Cultural Center and Bahrain Polytechnic are valued
partners, although access to both is limited. Use of the Isa Center for meetings of the National
Dialogue preempted public programs for a lengthy period. The center’s 6 p.m. closing time
precludes evening programs. Public access to the American Corner at Bahrain Polytechnic
requires additional approval from the school. Access and scheduling limitations at both
institutions make it difficult to meet new Department standards for use of American Spaces. The
embassy works closely with two other partners, the GLOBE Science and Technology Center and
the Al Riwaq Art Space, preferring to have the flexibility of maintaining these spaces outside of
the structure and standards required by the Bureau of International Information Programs.

       Informal Recommendation 4: Embassy Manama should seek a broader set of partners
       and make greater use of the American Corners and of program alumni in promoting U.S.
       educational opportunities.

English Language Programs

       A regional English language officer who covers Bahrain and five other countries is based
in Manama. Programs include Access (an English program targeted at disadvantaged youth),


                                       12
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


English language specialists, and an English Language Fellow at Bahrain Teachers College. The
embassy considers Access one of its top programs because it targets youth and prepares them for
other programs. Access reaches about 150 young people each year. Although a number
of Access alumni have gone on to achieve high scores on government tests, the Ministry of
Education does not mention this fact in its publicity about high-test scorers. Identifying a way to
recognize successful Access graduates publicly would be useful.




                                       13
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Resource Management
           Agency                   U.S.           U.S.        Foreign      Total       Total
                                  Direct-        Local-        National     Staff      Funding
                                 Hire Staff     Hire Staff      Staff                  FY 2012

Department of State
Diplomatic & Consular
Programs                              36             3             9          48       $2,116,175
International Cooperative
Administrative Support
Services                              6             13            62          81       $6,155,200
Public Diplomacy                      2                            6           8         $762,898
Diplomatic Security                   4              1             1           6       $1,419,103
Marine Security                       6                                        6         $209,292
Manama Regional Diplomatic
Courier Hub                           4              2             3           9         $172,403
Overseas Building Operations          1                                        1       $2,215,256
Regional English Language
Programs Office                       1                            1           2         $256,157
Consular                              3              2             2           7         $290,776
Department of Defense
Naval Criminal Investigative
Service                                1                                       1
Army Corps of Engineers                1                                       1
Office of Military Cooperation        10             2             1          13
Defense Attaché Office                 5                                       5         $255,735
Totals                                80            23            85         188      $13,852,995

Management Overview

        There is a need for better management planning across the board, including for staffing,
real property acquisition, office space, housing, safety, and maintenance. Management controls
are inadequate; in the procurement section, weak controls constitute a serious deficiency. The
section requires outside help. Customer satisfaction scores from OIG questionnaires for most
support services were low, reflecting a lack of basic processes and standard operating
procedures. Embassy Manama should make improving management operations and internal
controls a priority.




                                       14
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Mission Policies

       A review of the mission’s management policies revealed two issues. First, some
management policies have not been updated in years. For example, the embassy last updated its
housing policy in 2006.

Recommendation 19: Embassy Manama should review, update, and reissue all management
policies and post them on the embassy Web site. (Action: Embassy Manama)

        Second, management policies are difficult to locate on the embassy’s intranet Web site.
All are included beneath one heading entitled “embassy policies,” without any organizational
structure. A search of the management section Web site indicated that policies specific to each
section were not included under the section headings. The OIG team counseled management
leadership on the need to reorganize the Web site.

Staffing

         According to a 2007 rightsizing report, Embassy Manama projected no growth through
2012 and determined it could reduce its LE staff by 9.5 positions. Conditions and embassy needs
have changed. The rightsizing report suggested reducing the procurement section to one
employee; the OIG team does not support that recommendation. Many other cuts recommended
in the rightsizing report appear to be sound. For example, there is a large maintenance staff for
only two government-owned properties. As employees retire, the mission should not fill vacant
positions without further review. The mission faces a large number of retirements in the medium
term. Post is not analyzing future LE staff retirements with a view to a succession plan that
would align future staffing with operational needs. The failure to do so risks wasting U.S.
Government resources.

Recommendation 20: Embassy Manama should review locally employed staffing and planned
retirements and develop a hiring and succession plan to align future staffing with operational
needs. (Action: Embassy Manama)

Real Property

        The chancery and adjacent warehouse are government-owned. The chancery opened in
1990. Post is replacing major building systems. The chillers are new, the elevator will be
replaced in FY 2014, and the fire pump is slated for replacement. Warehouse space is adequate.
The DCM residence, the Marine security guard residence, and 68 staff residences are under
short-term leases on commercial housing compounds. The chief of mission residence is on a
short-term lease on its own compound.

Space Planning

      Reconfiguration of consular office space is pending funding. Conversion of a conference
room and offices to a multipurpose room is underway, with appropriate guidance and approvals



                                       15
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


from the Department. The embassy anticipates being able to provide office space for two
projected new regional security office LE staff positions.

       Basement space is underused. There are unused cubicles in the general services office.
Lack of clear staffing projections hampers comprehensive space planning and prevents
maximizing use of current facilities.

Recommendation 21: Embassy Manama, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a space planning study based on future staffing
projections. (Action: Embassy Manama, in coordination with OBO)

Land and Property Purchases

        Embassy Manama has identified several sites for possible purchase, including a 15-acre
site west of the embassy, a smaller lot to the east, and a housing compound. A strategic
assessment of land and property purchases would contribute to ensuring the best use of U.S.
Government funds.

        The chief of mission residence costs $272,000 per year (approximately $22,500 per
month) to rent. It is one of the Department’s most expensive short-term leased properties,
qualifying it for consideration to purchase. The embassy has requested the Department also
consider purchase of a DCM residence and a Marine security guard residence.

        The inspection team does not believe land acquisition is warranted for additional office
space. The chancery office building has excess space for additional staff. It is no longer standard
Department practice to construct chief of mission residences on embassy compounds. If the
embassy, the Bureau of Diplomatic Security, and the Bureau of Overseas Buildings Operations
agree that it is necessary to construct a Marine security guard residence on the embassy
compound, the embassy should explore land acquisition for that purpose.

        Purchase of housing could benefit the mission. The decision to purchase a housing
compound will depend first on a security assessment, then a cost-benefit analysis. The current
lease costs for the DCM residence and the Marine security guard residences do not automatically
qualify them for consideration for purchase, but the Department could consider purchase of
properties for those residences, as well as purchase of a chief of mission residence.

Recommendation 22: Embassy Manama, in coordination with the Bureau of Overseas
Buildings Operations, should produce a comprehensive action plan on land and property
acquisition. (Action: Embassy Manama, in coordination with OBO)

Representational Residences

        Embassy Manama determined in December 2011 that the former short-term leased DCM
residence was located in a dangerous neighborhood and should be moved, along with 14 other
residences. This information was reported to the Department in 11 Manama 767, dated
December 22, 2011. By the end of October 2012, the embassy had deemed 13 possible


                                       16
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


replacements for the DCM residence as unacceptable for reasons unrelated to security. In
November 2012, a residence was selected, and it was leased in January 2013, coincident with the
departure of the former DCM.

        Inspectors judge the current DCM residence to have good representational space,
convenient parking for at least 30 cars, and acceptable safety and security upgrades. Researching
other options wastes U.S. Government funds. Inspectors concur with Embassy Manama’s
decision to cease its search for a new DCM residence.

        Inspectors observed that the representational area of the new DCM residence is not
furnished with Department-supplied furniture and furnishings. Per 15 FAM 733.1, the
Department funds furniture, furnishings, refurbishment, and redecorating for the DCM residence.
Using furniture not supplied by the Department requires approval.

Recommendation 23: Embassy Manama should seek Department of State approval to use non-
Department of State furnishings in the deputy chief of mission residence. (Action: Embassy
Manama)

General Services

        The general services office suffers from poor communication up and down the chain of
command. An accurate arrivals and departures list would enhance the efficiency of all general
services sections. The embassy’s internship program is not adequately coordinated with the
general services office, creating adverse effects on housing, motor pool, and travel services. The
OIG team advised the embassy to include the general services officer in planning for interns.

Housing

        The housing assistant ably finds housing and maintains housing files, but coordination
with facilities management and security offices in approving and terminating leases is deficient.
Better leadership by the general services office would improve the housing assignments process.

        Embassy records show that the housing board met nine times in FY 2013. Required
attendees were not present at most meetings. The facilities manager attended only the most
recent meeting. The management officer attended two meetings, and a community liaison office
representative attended five. Guidance in 15 FAM 212.1 specifies that the single real property
manager (the management officer) is responsible for all aspects of the real property program. It
also specifies that required ex officio members of the board are the regional security officer and
the mission’s occupational safety and health officer (the facilities manager). Housing appeals are
addressed by the board, but inspectors observed a lack of rigor in the board’s analysis and
documentation. Written records of housing board meetings must include justifications for
decision. Guidance in 15 FAM 212.4 outlines the petitions and appeals process.

Recommendation 24: Embassy Manama should bring its housing program into compliance
with the Foreign Affairs Manual with regard to attendance and record keeping. (Action: Embassy
Manama)


                                       17
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



        In a spot check of embassy lease files, inspectors found deficiencies in housing selection
and approval. Security reports outline security deficiencies, but make no determination on
whether or not to lease the property. One security memorandum assessing the desirability of
leasing a property was dated a month after the lease was signed. Safety checklists are not signed
or dated, and no corrective action is indicated.

         Guidance in 15 FAM 252.5a. requires that safety, health, and environmental hazards be
identified in the selection of housing, that missions verify that the mission occupational safety
and health officer has inspected residences under consideration for purchase or lease, and that
those hazards have been effectively controlled or eliminated. Guidance in 15 FAM 252.4
requires the security office to conduct or supervise an inspection of prospective residential
properties and determine whether the property can be secured in accordance with residential
security guidelines. All relevant factors, with proper documentation, must be taken into account
before a lease is signed.

Recommendation 25: Embassy Manama should bring its housing selection process into
compliance with the Foreign Affairs Manual. (Action: Embassy Manama)

        In one file, there was no indication of coordination with the facilities management or
security office when a lease was terminated. Good practice and stewardship of funds requires
coordination to help the mission recoup the cost of equipment and upgrades to the extent
possible.

       Informal Recommendation 5: Embassy Manama should require that the regional
       security and the facilities management offices be informed well in advance of terminating
       a lease.

        The emergency action committee recommended in December 2011 that the former DCM
residence and 14 other residences be moved immediately because of security concerns. All
residences, except the DCM residence, were moved promptly. Despite the committee’s
recommendation, a lease for a new DCM residence was not signed until January 2013,
coinciding with the departure of the DCM.

Recommendation 26: Embassy Manama should require the housing board to implement
emergency action committee decisions expeditiously. (Action: Embassy Manama)

Trafficking in Persons

        Two major embassy-managed contracts over the $3,000 threshold do not comply with
Federal Acquisition Regulation clause 52.222-50 pertaining to trafficking in persons. Both
contracts use third country nationals and require monitoring of their labor conditions. The
contract for janitorial services does not contain or reference the clause. The
gardening/landscaping contract references clause 52.222-50, but contractor representatives are
not familiar with trafficking in persons guidance and have not structured monitoring plans as
outlined in procurement information bulletin no. 2011-09.


                                       18
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED



Recommendation 27: Embassy Manama should bring active contracts exceeding $3,000 into
compliance with Department of State regulations on trafficking in persons. (Action: Embassy
Manama)

Warehouse and Supply Chain Management

        Warehouse spaces are neat and equipped with good storage systems. Inspectors observed
containers of furniture outside the warehouse, and warehouse staff noted there was a lack of
storage space due to excess furniture holdings. U.S. direct-hire employees often bring personally
owned furniture with them and ask the embassy to store government-owned household furniture.
Per 6 FAH-5 H-512 b., beginning in 2015, at all furnished embassies, only furnished
government- leased/owned housing will be offered. The embassy needs to prepare for this
change.

Recommendation 28: Embassy Manama should implement and publish a policy restricting use
of personally owned furniture and furnishings and include the new policy in the welcome and
overseas briefing center materials. (Action: Embassy Manama)

        Embassy Manama requires that direct-hire employees verify, sign, and return their
residential furnishings inventory within 30 days of arrival. Some employees do not comply. Per
14 FAM 416.3, accountability for government-owned household property is vested in the
employee using the property. Lack of enforcement invites misuse of government resources.

Recommendation 29: Embassy Manama should enforce its policy on residential inventories.
(Action: Embassy Manama)

Customs and Shipping

        The customs and shipping staff consists of one LE employee who expedites shipments
and has a large contact base at the port and at the airport. This employee has not been able to
take leave, even when he has scheduled it well in advance, because of emergencies that require
his presence. Sound management requires backup for each critical function.

Recommendation 30: Embassy Manama should designate and train a backup shipping and
customs employee. (Action: Embassy Manama)

Motor Pool

       The motor pool has implemented the fleet management information system, but the
motor pool supervisor often inputs clients’ requests into the system on their behalf, an additional
burden for him.

       Informal Recommendation 6: Embassy Manama should require clients to submit motor
       pool requests through the automated system.



                                        19
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Inspectors observed that drivers do not enforce seat belt use and that signage in vehicles
is inadequate. Lack of a clear seat belt policy and enforcement procedures compromises
passenger safety.

Recommendation 31: Embassy Manama should adopt a policy that forbids drivers to put a car
into gear until all passengers fasten their seat belts. (Action: Embassy Manama)

Travel

         The travel clerk provides good customer service, but inspectors observed a blurring of
roles between financial management staff and general services staff in the E2 travel services
process. It is unclear from documentation in E2 that the general services officer is approving
travel authorizations. Lack of definition of roles causes friction among staff members and
inefficient operations. Lack of accountability for correct travel authorizations puts travelers at
financial risk.

Recommendation 32: Embassy Manama should review and define the roles in its E2 process.
(Action: Embassy Manama)

         In addition to managing travel services, the travel clerk is responsible for general services
petty cash, time and attendance, obtaining visas, reserving hotels, arranging logistics for VIP
visitors, and arranging for catering services at representational events. This workload is
excessive, especially since the travel clerk shares an office with the travel agent and is expected
to be responsive to clients when they walk in for service. It is sound management practice to
provide employees the time and environment needed to do their jobs. Having many
responsibilities requiring different skills reduces employee effectiveness.

Recommendation 33: Embassy Manama should review and update the travel clerk’s duties and
work environment. (Action: Embassy Manama)

Facilities Management and Safety, Health, and Environmental Management

          The facilities management section suffers from lack of clarity on roles and
responsibilities. The facilities manager has initiated improvements by removing safety and
supervisory responsibilities from the work order clerk’s position. The OIG team counseled the
facilities manager on empowering his subordinates and working with the human resources office
to improve supervision in his sections.

       The mission turned project and routine maintenance funds back to the Department at the
end of FY 2013. Better coordination between the Bureau of Overseas Buildings Operations and
the embassy might have enabled some of the projects to go forward.

        In a review of scheduled and unscheduled work requests, inspectors found
inconsistencies in prioritization of unscheduled work orders. The Facilities Maintenance
Operations Handbook (15 FAH-1 H-100) describes an effective facilities operations and goes
into detail on how best to plan and prioritize work.


                                        20
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



Recommendation 34: Embassy Manama should implement standard operating procedures on
how to prioritize facilities work in accordance with Department of State regulations. (Action:
Embassy Manama)

        The facilities manager is designated the mission’s occupational safety and health officer.
The safety and health committee had its first meeting in several years at the end of FY 2013, and
minutes of that meeting indicate intent to meet quarterly in the future. Regulations in 15 FAM
933 require at least semiannual meetings. Without regular oversight of the safety program,
employees risk injury. The embassy should continue to hold regular meetings of the safety and
health committee.

Human Resources

        International Cooperative Administrative Support Services (ICASS) scores for direct-hire
human resources services are below worldwide and bureau averages. Human resource service
scores for the LE staff improved this year and now exceed worldwide and bureau averages.
Work and quality of life questionnaires administered by the OIG team report scores significantly
below prior embassy averages in human resources support and services, administration of the
awards program, and fairness of family member hiring. Poor leadership, lack of adequate
processes, and the absence of transparency and communication have hampered the staff. The
human resources officer needs to reinvigorate the section and regain the trust of the mission’s
direct-hire employees, LE staff, and eligible family members.

        Inspectors encountered a number of shortcomings in the office. The retail price survey
had not been completed since 2009. Personnel cables were not being sent using the proper
template and each message was being created from scratch. Supervisors were not being notified
6 months prior to LE subordinates’ retirement dates. Staffing patterns contained numerous
mistakes.

Third Country National Policy and Locally Employed Staff Hiring

        Embassy Manama does not have a policy on third country nationals. The embassy
employs Bahraini nationals and locally recruited citizens from other countries. Until recently, all
LE staff members were either Bahraini citizens or possessed a Bahraini Government work or
residency permit. Job vacancy announcements reflect that policy. The LE handbook is silent on
whether the mission can recruit employees without work or residency permits. However, the
mission hired three such employees from outside the country recently. These actions were not
transparent, and many members of the mission questioned the need to recruit employees from
outside Bahrain.

Recommendation 35: Embassy Manama should cease hiring non-Bahrainis without government
work or residency permits or clarify under what circumstances this practice will continue.
(Action: Embassy Manama)




                                       21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Locally Employed Staff Committee

        Inspectors met with the LE staff committee, whose members expressed concerns about
compensation and benefit issues, hiring policy, discrimination and favoritism, unfair dismissals,
and a lack of cultural sensitivity displayed by some direct-hire employees. They said their
primary points of contact are the management officer and the human resources officer. They
occasionally have access to the DCM, but not to the Ambassador. It would be helpful for
embassy management to respond to LE staff concerns in writing.

Benefits

         The LE staff has two main concerns regarding benefits. One is the payment of a 1-month
salary bonus that is prevailing practice among most companies in Bahrain. The LE staff
committee has been working with embassy management for more than 2 years to implement the
bonus. In the past year, there has been correspondence with the Office of Overseas Employment
about the appropriate comparators. The embassy asserts that the Office of Overseas Employment
is using the wrong comparators.

Recommendation 36: Embassy Manama should send the Bureau of Human Resources a new
list of appropriate comparator firms to help determine whether a 1-month bonus is warranted.
(Action: Embassy Manama)

         The second benefit issue relates to changes to the local compensation plan brought about
by a new Bahraini labor law implemented in September 2012. The law grants additional benefits
to Bahraini employees in the areas of annual and sick leave, maternity benefits, and pilgrimage
leave. As with the bonus, too much time was wasted—this time trying to get an English
translation of the labor law that was issued in Arabic. The embassy sent the plan to the Office of
Overseas Employment in March 2013; it remains under review.

Recommendation 37: The Bureau of Human Resources should complete its analysis of
Embassy Manama’s request to update the local compensation plan. (Action: DGHR)

Cultural Sensitivity

         The LE committee cited several examples of culturally insensitive behavior by American
employees. It is unclear whether the words and actions were spiteful or occurred because the
employees lacked knowledge of Bahraini culture and norms. To guard against such events, it
would be helpful for the embassy to incorporate a cultural sensitivity component into its
orientation programs for U.S. direct-hire and locally employed staff.

Job Classification

         Embassy Manama has two position classifiers—the direct-hire human resources officer
and the senior LE human resources specialist. The specialist prepares the majority of the
classifications and is the point person for clients unhappy with what they considered low



                                       22
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


classifications. This practice subjects the specialist to undue pressure. A U.S. officer should be in
charge of this process.

       Informal Recommendation 7: Embassy Manama should require the human resources
       officer to classify positions, and in his absence, another embassy officer.

Local Employee Hiring Procedures

         Inspectors received numerous complaints about how the embassy recruits and hires local
staff. Issues included recruiting from overseas without conveying changes in guidelines to the LE
staff committee, hiring unqualified employees who are put on performance improvement plans
shortly after they are hired, hiring employees who do not meet all qualifications in the vacancy
announcement, and unfair dismissals.

        Hiring policy is included in Manama’s LE handbook, but it is vague and not detailed. A
post recruitment policy is dated July 2008, but it mostly defines categories of employment rather
than the process of hiring, causing confusion for LE staff.

Recommendation 38: Embassy Manama should update the hiring portion of its locally
employed handbook and its 2008 recruitment policy. (Action: Embassy Manama)

Eligible Family Members

         Embassy Manama is to be commended for creating numerous EFM positions. At the time
of the inspection, it employed 18 EFMs; additional positions were pending.

         But fairness in family hiring scored low on OIG inspection questionnaires. Transparency
and communication were two areas of concern. Post does not have an EFM hiring policy.
Instead, it relies on generic, non-specific policy prepared by the Department. The Office of
Overseas Employment recently published an EFM guide that could serve as a reference for
updating post policy. In addition, the embassy’s human resources office has created a matrix that
details the EFM application, review, and hiring process. This matrix should be included in the
new policy.

Recommendation 39: Embassy Manama should update its policy on hiring eligible family
members. (Action: Embassy Manama)

        Inspectors attended one EFM job interview at which no voting members of the mission
employee committee were present. Committee membership is sufficiently broad to allow one or
more committee members to attend EFM job interviews. Their attendance would increase the
transparency of the process and elicit more views on how applicants performed during
interviews.

Recommendation 40: Embassy Manama should require at least one voting member of the
employment committee to participate in all job interviews for eligible family member positions.
(Action: Embassy Manama)


                                        23
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Holidays

        Embassy Manama’s 2013 holiday calendar indicates the embassy celebrates 10 U.S.
Government holidays, along with 12 local Bahraini holidays. Guidance in 2 FAM 115.2d. states
that embassies should endeavor to limit the number of local holidays to the number of U.S.
holidays, if necessary by observing only the most important local holidays.

Recommendation 41: Embassy Manama should limit the number of American and Bahraini
holidays to 20 or fewer per calendar year. (Action: Embassy Manama)

Regional Responsibilities

        The Manama human resources officer position is designated as having regional
responsibilities. The previous officer serviced both Yemen and Lebanon, but both embassies now
have resident human resources officers. The Manama human resources officer no longer needs
regional responsibilities.

Recommendation 42: Embassy Manama, in coordination with the Bureau of Near Eastern
Affairs and the Bureau of Human Resources, should eliminate the regional designation of
Manama’s human resource officer. (Action: Embassy Manama, in coordination with NEA and
DGHR)

Domestic Employees

       One local staff member spends a considerable amount of time working with the host
government on issues related to domestic servants. Contracting a local employment company to
handle these issues might be more efficient and warrants consideration.

Language Designated Positions

         Embassy Manama has 10 language designated positions: the DCM; 4 political/economic
officers, 2 consular officers, 2 public diplomacy officers, and the management officer. As half
the population of Bahrain is expatriate, many from South Asia, the common language of the
country is English. Six of the 10 officers in language designated positions reported to inspectors
that they do not use Arabic in their jobs. The number of language designated positions makes
finding qualified candidates for embassy jobs more challenging. Moreover, it costs the
Department approximately $500,000 to train an officer to speak proficient Arabic.

Recommendation 43: Embassy Manama should review its language designated positions and
submit resulting changes for the Department of State’s 2014 triennial review. (Action: Embassy
Manama)




                                        24
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Equal Employment Opportunity

       The embassy has identified an Equal Employment Opportunity (EEO) counselor and a
Federal Women’s Program coordinator. The EEO counselor has completed appropriate training.

         Some EEO information is posted on a bulletin board near the cafeteria but it is
incomplete. One document dates from 1997. The information needs to be updated. There is no
LE EEO liaison at post. There have been no town halls to discuss EEO. Holding one would help
stress the importance of this issue.

Financial Management

         Scores from ICASS and OIG questionnaires indicate the financial management unit is
performing well. ICASS scores for vouchering and payroll increased significantly this year.
Justifications provided by post for obligations not yet liquidated were valid.

        The relationship between the financial management office and the procurement and travel
sections has deteriorated over the years. There needs to be a concerted effort by both sections to
overcome past disagreements and work as a cohesive team. The financial management officer
and the general service officer should actively participate in this effort. Developing a process
map to document responsibilities and timeframes for completing work would be helpful.

       Informal Recommendation 8: Embassy Bahrain should establish a training workshop
       for financial management and general service employees in the procurement and travel
       units to improve communication among them.

Budgeting/Accounting

        Embassy Manama has returned a significant amount of funds to the Department for each
of the past 3 years. On the program side, $400,000 was returned in FY 2011, $80,000 in FY
2012, and $200,000 in FY 2013. ICASS funds totaling $1.5 million were returned at the end of
FY 2013. A review of the deobligation list from May 2013 indicates that numerous obligations
were canceled because contracts were not initiated or procurements were not made.

       Informal Recommendation 9: Embassy Manama should reduce the number of
       obligations established and then canceled.

International Cooperative Administrative Support Services

        Embassy Manama is an ICASS–lite post with only four voting members on its ICASS
council, two of whom represent small agencies at post. Meetings are infrequent. While no major
issues exist, meeting minutes are brief and the embassy does not post them on its intranet site.
Doing so would make the ICASS process more transparent.




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Use of the Post Support Unit

       In FY 2011, Embassy Manama used the Bangkok post support unit extensively and
processed over 1,350 vouchers through that unit. This number dropped to 340 in FY 2012 and to
122 in FY 2013; the majority of those were travel vouchers. Embassy Manama’s average cost to
process a voucher is $38.65 per strip code; regional post support units charge $12 per strip code.
Guidance from the Global Financial Services office in Charleston, SC, is that outsourcing
voucher processing is optional and should be determined locally. Not choosing the appropriate
voucher processing method is costly to the U.S. Government.

Recommendation 44: Embassy Manama, in coordination with the Bureau of the Comptroller
and Global Financial Services, should perform a cost-benefit analysis to determine the most cost
effective location to process financial vouchers. (Action: Embassy Manama, in coordination with
CGFS)

Use of Fund Transfers to Pay Official Residence Expenses Staff

        A review of official residence expenses staff files indicated one employee on the
Ambassador’s staff receives an electronic funds salary payment directly to his bank account from
the Ambassador via the U.S. Government disbursing system. This practice is counter to 3 FAM
3257a., which states that permanent and part-time official residence expenses staff are employees
of the principal representative, not of the U.S. Government.

Recommendation 45: Embassy Manama should cease electronic funds transfer salary payments
to official residence expenses staff. (Action: Embassy Manama)

Representation

       A review of the representation budget and vouchers indicated that funds were being spent
appropriately, but there is no representation plan that allocates the monies to various sections.

       Informal Recommendation 10: Embassy Manama should implement a representation
       plan.

Information Management

         The information programs and information systems centers meet the mission’s basic
requirements. When all positions are encumbered, the embassy’s information management (IM)
staffing level is appropriate to current operational requirements. Two consecutive curtailments in
the IM officer position have left two untenured first-tour officers largely on their own for much
of their tours. The OIG team commends these two employees for their dedication and success in
managing post’s IM infrastructure. The section received above average scores in almost all
categories in both ICASS and OIG surveys.

        The inspection team found a number of shortcomings and counseled IM staff on
requirements to mark computer hardware and removable media to its highest level of


                                       26
                           SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


         classification; to encrypt laptop computers lacking encryption; to use maintenance and visitor
         logs for the server and telephone frame rooms; to post current access lists for the server,
         telephone frame, and mail and pouch rooms; and to change combination locks in IM spaces in a
         timely way. These infractions were addressed and mitigated during the inspection.

         Information Systems
[Redacted] (b) (5)




         Information Programs

                 The embassy has not performed the quarterly drills outlined in its emergency destruction
         plan.

                 Informal Recommendation 11: Embassy Manama should conduct drills outlined in its
                 emergency destruction plan.

         Radio Operations

                 Post files show host government approval for VHF/UHF frequencies that are no longer
         used by the embassy. The embassy has not requested formal approval for the frequencies it
         currently uses. The embassy’s citywide radio coverage is also inadequate, which may be a result
         of new building construction that surrounds the current repeater site.

         Recommendation 47: Embassy Manama, in coordination with the Frankfurt Regional
         Information Management Center, should conduct a survey to determine whether to relocate or
         augment VHF/UHF radio repeaters and dispose of equipment no longer used or needed. (Action:
         Embassy Manama, in coordination with RIMC Frankfurt)

                 Informal Recommendation 12: Embassy Manama should request host government
                 approval for the VHF/UHF radio frequencies it currently uses.

         Mail and Pouch Operations

                 The mission does not have standard operating procedures for mail and pouch room
         operations. Standard information management practice dictates having written standard operating
         procedures as a reference guide for others to follow should the locally employed mailroom clerk
         be absent.




                                                27
                                    SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


       Informal Recommendation 13: Embassy Manama should implement mailroom standard
       operating procedures. (Action: Embassy Manama)

        Mail screening facilities are adequate, but mailroom staff can improve screening
procedures by disposing of the Plexiglas bubble in the external screening facility and using a
biological safety cabinet in its place.




                                       28
                           SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



Quality of Life

        Embassy Manama direct-hire employees receive a 10-percent hardship differential and a
15-percent cost of living allowance. Negative conditions in Bahrain include heavy traffic,
frequent tire burnings in the streets, oppressive summer heat, and the lack of social and travel
opportunities within the country. On the positive side, Manama is a family post and there are
many opportunities for spousal employment. Employees have several school options for their
children. The health unit adequately services the needs of the staff.

Overseas Schools

        Most embassy children attend the [Redacted] (b) (5), [Redacted] (b) (6)
                                    The relationship between the embassy and the school is
long-standing, with the DCM serving as the Ambassador’s representative on the school board. A
growing number of embassy dependents, however, now use other schools, including the [Reda
[Redacted] (b) (5), [Redacted] (b) (6)                                                                         cted]
                                                                                                               (b)
                                                   In each case, embassy dependents form a small percentage of (5),
                                                                                                               the
 school enrollment and some families have expressed concern over a perceived lack of attention                 [Reda
 to the needs of embassy families. The participation of embassy families in schools other cted]                than the
[Redacted] (b) (5), [Redacted] (b) (6)
                                       is a recent phenomenon. There is little interaction between the embassy and  the
                                                                                                               (b) (6)
leadership of these schools. Strengthening formal contact with the administration of all schools
where embassy dependents are enrolled would be helpful.
                                                                                       [Redacted] (b) (5), [Redacted] (b) (6)
        Invoicing and tuition procedures recently adopted by the                    have caused
hardship as recent arrivals have had to pay tuition in cash before their children could attend class.
The demand for large sums of cash has created complications for the Embassy Manama cashier.

         Informal Recommendation 14: Embassy Manama should establish clear tuition and
                                              [Redacted] (b) (5), [Redacted] (b) (6)
         billing arrangements with the         and convey these to incoming families.

         Security practices observed by the OIG team appear appropriate to the environment.

Community Liaison Office

        The community liaison office has an active program with two half-time coordinator
positions. Neither of the current coordinators has completed training from the family liaison
office but both of them plan to do so at an early opportunity.

        A coordinator attends the weekly country team meeting. Because of delays in obtaining a
security clearance, neither coordinator attends the senior staff meeting. For similar reasons, the
coordinators do not participate in meetings of the emergency action committee. One coordinator
recently received her interim clearance after an extended delay. Given heightened security
awareness in Bahrain and the importance of the coordinators in emergency preparation,
communication, and rumor control, participation by a coordinator is a vital element in
emergency planning.



                                             29
                                 SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Recommendation 48: Embassy Manama should require that a community liaison office
coordinator attend emergency action committee meetings. (Action: Embassy Manama)

        The Family Liaison Office offers excellent materials to guide an emergency preparedness
seminar. Department guidance encourages embassies to hold such a seminar at least annually to
prepare U.S. direct-hire employees and their families for different types of emergencies.

Recommendation 49: Embassy Manama should conduct an emergency preparedness seminar at
least annually. (Action: Embassy Manama)

        The coordinators meet on a weekly basis with the management counselor but have no
direct meetings with the DCM. The DCM should have the benefit of unfiltered insight into the
embassy community that coordinators can provide. Meeting regularly with them would help to
provide that insight.

Innovative Practice: Welcome Kit Hot Spots

Innovative Practice: Mobile Internet Routers in the Welcome Kits

Issue/Challenge: New arrivals move directly into permanent quarters rather than staying
temporarily in a hotel. It can take up to a month to obtain the necessary local documentation and
make arrangements to secure residential Internet connectivity. During this time, lack of
connectivity complicates communications, including emergency notifications. Most families now
do online banking and bill paying, schools communicate by email, and homework assignments
presume Internet access. An extended period without Internet access is a hardship.

Background: Creating a smooth transition for newly arrived employees increases efficiency.

Response:Embassy Manama purchased a number of mobile Internet routers and includes one in
each newcomer’s welcome kit. The community liaison office purchases a local SIM card for the
device for each incoming employee with sufficient credit for several days’ use. Employees can
add additional credit at their own expense. The mission makes the initial SIM card purchases
using community liaison office funds raised through bake sales and similar events.

The decision to use mobile routers allows up to five devices per family and takes into account
that smart phones and other mobile devices may not have plug-in ports. New arrivals can use the
mobile router for up to a month, after which, they must return it to the GSO for inclusion in the
next welcome kit.

Benefit: New arrivals are able to connect to the Internet upon arrival and during their first
month. This contributes to a smooth transition and increases productivity.




                                        30
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Management Controls

         Management controls at Embassy Manama are inadequate. Despite the embassy’s
positive responses to the OIG functional questionnaires, and the positive information provided
by the regional bureau, the OIG team determined the breakdown in procurement processes
reaches the level of a significant deficiency. A significant deficiency is defined in 2 FAM 021.3
as a deficiency, or combination of deficiencies, that represents significant weaknesses in the
design or operation of internal control that could adversely affect the organization’s ability to
meet its internal control objectives, and which could significantly weaken safeguards against
waste, loss, unauthorized use, or misappropriation of funds, property, other assets, or conflict of
interest. The annual message to chiefs of mission explaining their role in assuring strong
management controls and oversight over the embassy contains an abbreviated definition of a
significant deficiency. The deficiency was not addressed in Manama’s chief of mission annual
statement of assurance.

Recommendation 50: Embassy Manama should update the process by which the chief of
mission reviews the annual statement of assurance. (Action: Embassy Manama)

Procurement

        Understaffing and lack of staff competence have plagued the procurement section for at
least 2 years. Files are incomplete and in some cases nonexistent. Goods and bills arrive at the
embassy without explanation. LE staff attempt to reconstruct records from purchase requests to
receiving reports. Because general service and management officers pressured staff to
reconstruct records from FY 2010 forward, the staff has been unable to keep up with its current
workload or establish sound procurement practices.

Recommendation 51: Embassy Manama, in coordination with the Bureau of Near Eastern
Affairs and the Bureau of Administration, should implement an action plan to correct
deficiencies in procurement operations. (Action: Embassy Manama, in coordination with NEA
and A)

Warehouse Operations

        Receiving and maintenance storage suffer from weak procedures. The warehouse
function lacks adequate supervision. Though the general services officer visits the warehouse
occasionally, it would be helpful if he spent more time there and conducted announced and
unannounced visits.

        Inspectors observed that, though the receiving area is locked and fenced off, [Redacted]
[Redacted] (b) (5), [Redacted] (b) (6)                              . Staff members use(b) (5),
                                                                                            the
                                                                                       [Redacted]
receiving cage for routine storage. The receiving clerk has limited space to perform his   duties
                                                                                       (b) (6)
and limited secure file space. A general in-box for warehouse staff is located near the receiving
clerk’s workstation, inviting mixing and loss of documents. The receiving clerk escorts vendors
to the requester’s office, where receiving and issuance take place simultaneously. For expendable
supplies, vendors often deliver supplies and stock the shelves. This practice constitutes


                                          31
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


inappropriate access to the warehouse by unauthorized personnel, leaving inadequate time to
properly receive and inventory the supplies.

        Guidance in 14 FAM 413 outlines property receipt requirements and procedures. Not
following these procedures blurs procurement and property accountability functions, risking
mismanagement and waste of U.S. Government goods and services.

Recommendation 52: Embassy Manama should bring its receiving function into compliance
with Foreign Affairs Manual requirements. (Action: Embassy Manama)

        Although the maintenance storekeeper seems to be performing his duties at the
maintenance storage container, two other storage containers are regularly accessed by
maintenance employees to obtain needed supplies and equipment with no property accountability
oversight. One container holds hazardous material. 14 FAM 413.7 outlines sound storage
practices, and 14 FAM 414.1 describes property accountability procedures.

Recommendation 53: Embassy Manama should bring its maintenance storage and
accountability functions into compliance with Foreign Affairs Manual requirements. (Action:
Embassy Manama)

Locally Employed Staff Overtime

        Though adequately staffed, Embassy Manama paid 2,000 hours of overtime
compensation to general services employees and 1,000 hours to facilities management
employees in FY 2013. According to the Foreign Affairs Handbook, (FAH) 4 FAH-3 H-525.1-2
the management officer must establish controls for accurate and timely recording and reporting
of time and attendance. The mission delegates responsibility for overtime authorization to each
section supervisor and time and attendance to the financial management officer. Nobody
monitors LE staff overtime, resulting in anomalies and improper overtime approvals.

Recommendation 54: Embassy Manama should designate a single officer to oversee locally
employed staff overtime compensation. (Action: Embassy Manama)

       Informal Recommendation 15: Embassy Manama should complete an overtime analysis
       for FY 2013 and share the results with supervisors and with the International Cooperative
       Administrative Support Services council.

Motor Pool

        Although motor pool recordkeeping is generally good, no detailed records of vehicle
usage exist for maintenance, supply, and front office vehicles. Drivers obtain signatures on trip
tickets produced by requests entered into the automated system but do not keep detailed logs and
get signatures from passengers who are not required to submit motor pool requests. Because no
logs of times and locations traveled exist, it is impossible to establish accountability for time and
kilometers traveled in those vehicles.



                                        32
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 55: Embassy Manama should require all drivers to complete a trip ticket from
the automated system, or Official Form-108, and obtain passenger signatures for every trip.
(Action: Embassy Manama)

        Maintenance and supply staff members have access to and regularly use embassy
vehicles. Mailroom employees do not have a designated vehicle, and their operations may be
disadvantaged as a result.

Personal Use of Government Vehicles

        The embassy’s motor pool policy spells out procedures and sets specific charges for
“other authorized use” of government vehicles. Lack of enforcement of this policy invites
inappropriate use of government resources. The OIG team identified instances of nonpayment
for services provided to an employee’s family member. Manama has safe and reliable expediting
and taxi services, making use of an embassy expeditor and driver unnecessary.

Recommendation 56: Embassy Manama should cease providing expeditor and motor pool
services for personal trips. (Action: Embassy Manama)

Cafeteria Contract

        A cafeteria is located in the embassy basement and operates Sunday through Thursday
from 9:30 a.m. to 1:30 p.m. Two employees who work for the morale, welfare, and recreation
office at the local American Navy base staff it. There is no contract or license agreement
between the embassy and the Navy that addresses or documents services provided, liability, or
hours of operation.

         In early 2013, the general services office drafted a proposed license agreement and
forwarded it to the base. The Navy responded by preparing its own memorandum of agreement
to the embassy for signature. When contacted about this alternative document, the Office of the
Procurement Executive suggested that both parties sign a service level agreement to detail the
relationship. At the time of the inspection, the parties had not agreed on the proper format to
document the relationship.

        Informal Recommendation 16: Embassy Manama should determine the correct contract
        to use in hosting the cafeteria operation and implement the appropriate agreement.

Gifts

         The management officer is designated the gifts officer, but the embassy does not have a
standard operating procedure for disposing of gifts in accordance with Department regulations.
Per 3 FAM 4122.1, the designated officer for receiving gifts is the management officer. Because
gifts are used and disposed of in accordance with Department regulations governing property
management and disposal, management offices often delegate this role to the general services
office. The absence of a clear standard operating procedure for gifts disposition places gift



                                       33
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


recipients at risk of ethics violations by either keeping disallowed gifts or not documenting their
disposal.

       Informal Recommendation 17: Embassy Manama should implement a standard
       operating procedure for gifts disposition.

Cashiering

         The inspectors conducted a cash reconciliation and found the cashier office to be in order
and the advance balanced. The cashier’s workload increased in March 2013 when an outside
entity that had provided accommodation exchange for the embassy ceased providing that service.
Embassy Manama now provides accommodation exchange even though automatic teller
machines are available and safe. Per 4 FAH-3 H-361.2 a., each ambassador is authorized to
decide whether to authorize the Class B cashier to provide accommodation exchange services
after considering the availability of U.S.-owned foreign currency in the country and satisfactory
local banking and/or automatic teller machine facilities for obtaining the currency. Per 4 FAH-3
H-361.2 c., having the Class B cashier provide accommodation exchange increases the amount
of the cashier’s advance and places the cashier at greater risk of receiving an uncollectible check.

Recommendation 57: Embassy Manama should conduct a management review to determine
whether to continue to provide cash accommodation exchange services. (Action: Embassy
Manama)

Consular

         Access to the consular section is properly controlled. The section appropriately maintains
its inventories of accountable items. [Redacted] (b) (5)



        The OIG team reviewed consular accountability and found that the consular chief is
reviewing subordinate officers’ adjudications properly. However, the DCM is not reviewing
those of the consular chief. He should do so.

         The consular cashier and backup cashier have their own cash advance. The accountable
consular officer for fees supervises cashier operations correctly and without discrepancy. There
is line-of-site supervision of the consular cashier. The consular cashier turns the fees over to the
financial management office on a daily basis.




                                        34
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



List of Recommendations

Recommendation 1: Embassy Manama should implement a planning effort that has broad
participation by mission staff and includes all sections’ programs. The effort should include
quarterly reviews. (Action: Embassy Manama)

Recommendation 2: Embassy Manama should conduct separate town hall meetings at least
once a year with direct-hire staff, locally employed staff, and eligible family members. (Action:
Embassy Manama)

Recommendation 3: The Bureau of Near Eastern Affairs, in coordination with the Bureau of
Human Resources and Embassy Manama, should address each time and attendance item cited in
the Office of Inspector General memorandum on the subject and refer unresolved discrepancies
to the Bureau of Human Resources for appropriate action. (Action: NEA, in coordination with
DGHR and Embassy Manama)

Recommendation 4: Embassy Manama should restructure the first- and second-tour officers
program to provide better professional development opportunities. (Action: Embassy Manama)

Recommendation 5: Embassy Manama should implement a comprehensive reporting plan to
complement spot reporting with additional analytical economic and political reporting. (Action:
Embassy Manama)

Recommendation 6: Embassy Manama should determine the need for a U.S. direct-hire office
management specialist in the political/economic section. (Action: Embassy Manama)

Recommendation 7: Embassy Manama should establish an interagency strategy to expand
U.S. exports to Bahrain that is consistent with the National Export Initiative. (Action: Embassy
Manama)

Recommendation 8: Embassy Manama should require the political/economic section to use a
standardized filing system in shared section files. (Action: Embassy Manama)

Recommendation 9: Embassy Manama should update consular standard operating procedures
and post them on the consular SharePoint site. (Action: Embassy Manama)

Recommendation 10: Embassy Manama, in coordination with the Bureau of Consular Affairs,
should approach the Government of Bahrain to address lack of reciprocity in visa fees. (Action:
Embassy Manama, in coordination with CA)

Recommendation 11: Embassy Manama should implement a missionwide public affairs
strategy that clarifies key messages and priorities and integrates the Ambassador more closely
into the full range of public diplomacy activities. (Action: Embassy Manama)

Recommendation 12: Embassy Manama should establish a media plan to address mission
priorities. (Action: Embassy Manama)



                                       35
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 13: Embassy Manama, in coordination with the Bureau of International
Information Programs, should implement a broad-based social media plan. (Action: Embassy
Manama, in coordination with IIP)

Recommendation 14: Embassy Manama should implement standard operating procedures to
help all sections understand their responsibilities in the International Visitor Leadership Program
process. (Action: Embassy Manama)

Recommendation 15: The Bureau of Educational and Cultural Affairs, in coordination with
the Bureau of Near Eastern Affairs, should fill the regional educational advising coordinator
vacancy. (Action: ECA, in coordination with NEA)

Recommendation 16: Embassy Manama should require the public affairs grants specialist to
complete grants management training courses offered by the Foreign Service Institute. (Action:
Embassy Manama)

Recommendation 17: Embassy Manama should implement standard operating procedures for
followup with noncompliant grantees. (Action: Embassy Manama)

Recommendation 18: Embassy Manama should update local employee position descriptions
in the public affairs section. (Action: Embassy Manama)

Recommendation 19: Embassy Manama should review, update, and reissue all management
policies and post them on the embassy Web site. (Action: Embassy Manama)

Recommendation 20: Embassy Manama should review locally employed staffing and planned
retirements and develop a hiring and succession plan to align future staffing with operational
needs. (Action: Embassy Manama)

Recommendation 21: Embassy Manama, in coordination with the Bureau of Overseas
Buildings Operations, should conduct a space planning study based on future staffing
projections. (Action: Embassy Manama, in coordination with OBO)

Recommendation 22: Embassy Manama, in coordination with the Bureau of Overseas
Buildings Operations, should produce a comprehensive action plan on land and property
acquisition. (Action: Embassy Manama, in coordination with OBO)

Recommendation 23: Embassy Manama should seek Department of State approval to use
non-Department of State furnishings in the deputy chief of mission residence. (Action: Embassy
Manama)

Recommendation 24: Embassy Manama should bring its housing program into compliance
with the Foreign Affairs Manual with regard to attendance and record keeping. (Action: Embassy
Manama)

Recommendation 25: Embassy Manama should bring its housing selection process into
compliance with the Foreign Affairs Manual. (Action: Embassy Manama)



                                       36
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Recommendation 26: Embassy Manama should require the housing board to implement
emergency action committee decisions expeditiously. (Action: Embassy Manama)

Recommendation 27: Embassy Manama should bring active contracts exceeding $3,000 into
compliance with Department of State regulations on trafficking in persons. (Action: Embassy
Manama)

Recommendation 28: Embassy Manama should implement and publish a policy restricting
use of personally owned furniture and furnishings and include the new policy in the welcome
and overseas briefing center materials. (Action: Embassy Manama)

Recommendation 29: Embassy Manama should enforce its policy on residential inventories.
(Action: Embassy Manama)

Recommendation 30: Embassy Manama should designate and train a backup shipping and
customs employee. (Action: Embassy Manama)

Recommendation 31: Embassy Manama should adopt a policy that forbids drivers to put a car
into gear until all passengers fasten their seat belts. (Action: Embassy Manama)

Recommendation 32: Embassy Manama should review and define the roles in its E2 process.
(Action: Embassy Manama)

Recommendation 33: Embassy Manama should review and update the travel clerk’s duties
and work environment. (Action: Embassy Manama)

Recommendation 34: Embassy Manama should implement standard operating procedures on
how to prioritize facilities work in accordance with Department of State regulations. (Action:
Embassy Manama)

Recommendation 35: Embassy Manama should cease hiring non-Bahrainis without
government work or residency permits or clarify under what circumstances this practice will
continue. (Action: Embassy Manama)

Recommendation 36: Embassy Manama should send the Bureau of Human Resources a new
list of appropriate comparator firms to help determine whether a 1-month bonus is warranted.
(Action: Embassy Manama)

Recommendation 37: The Bureau of Human Resources should complete its analysis of
Embassy Manama’s request to update the local compensation plan. (Action: DGHR)

Recommendation 38: Embassy Manama should update the hiring portion of its locally
employed handbook and its 2008 recruitment policy. (Action: Embassy Manama)

Recommendation 39: Embassy Manama should update its policy on hiring eligible family
members. (Action: Embassy Manama)




                                      37
                          SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


    Recommendation 40: Embassy Manama should require at least one voting member of the
    employment committee to participate in all job interviews for eligible family member positions.
    (Action: Embassy Manama)

    Recommendation 41: Embassy Manama should limit the number of American and Bahraini
    holidays to 20 or fewer per calendar year. (Action: Embassy Manama)

    Recommendation 42: Embassy Manama, in coordination with the Bureau of Near Eastern
    Affairs and the Bureau of Human Resources, should eliminate the regional designation of
    Manama’s human resource officer. (Action: Embassy Manama, in coordination with NEA and
    DGHR)

    Recommendation 43: Embassy Manama should review its language designated positions and
    submit resulting changes for the Department of State’s 2014 triennial review. (Action: Embassy
    Manama)

    Recommendation 44: Embassy Manama, in coordination with the Bureau of the Comptroller
    and Global Financial Services, should perform a cost-benefit analysis to determine the most cost
    effective location to process financial vouchers. (Action: Embassy Manama, in coordination with
    CGFS)

    Recommendation 45: Embassy Manama should cease electronic funds transfer salary
    payments to official residence expenses staff. (Action: Embassy Manama)
[Redacted] (b) (5)



    Recommendation 47: Embassy Manama, in coordination with the Frankfurt Regional
    Information Management Center, should conduct a survey to determine whether to relocate or
    augment VHF/UHF radio repeaters and dispose of equipment no longer used or needed. (Action:
    Embassy Manama, in coordination with RIMC Frankfurt)

    Recommendation 48: Embassy Manama should require that a community liaison office
    coordinator attend emergency action committee meetings. (Action: Embassy Manama)

    Recommendation 49: Embassy Manama should conduct an emergency preparedness seminar
    at least annually. (Action: Embassy Manama)

    Recommendation 50: Embassy Manama should update the process by which the chief of
    mission reviews the annual statement of assurance. (Action: Embassy Manama)

    Recommendation 51: Embassy Manama, in coordination with the Bureau of Near Eastern
    Affairs and the Bureau of Administration, should implement an action plan to correct
    deficiencies in procurement operations. (Action: Embassy Manama, in coordination with NEA
    and A)

    Recommendation 52: Embassy Manama should bring its receiving function into compliance
    with Foreign Affairs Manual requirements. (Action: Embassy Manama)


                                           38
                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Recommendation 53: Embassy Manama should bring its maintenance storage and
accountability functions into compliance with Foreign Affairs Manual requirements. (Action:
Embassy Manama)

Recommendation 54: Embassy Manama should designate a single officer to oversee locally
employed staff overtime compensation. (Action: Embassy Manama)

Recommendation 55: Embassy Manama should require all drivers to complete a trip ticket
from the automated system, or Official Form-108, and obtain passenger signatures for every trip.
(Action: Embassy Manama)

Recommendation 56: Embassy Manama should cease providing expeditor and motor pool
services for personal trips. (Action: Embassy Manama)

Recommendation 57: Embassy Manama should conduct a management review to determine
whether to continue to provide cash accommodation exchange services. (Action: Embassy
Manama)

.




                                       39
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Manama should establish a working group comprising
all embassy elements that have reporting responsibilities.

Informal Recommendation 2: Embassy Manama should conduct warden meetings and training
on an annual basis.

Informal Recommendation 3: Embassy Manama should recruit more widely for the Fulbright
Language Teaching Assistant program.

Informal Recommendation 4: Embassy Manama should seek a broader set of partners and
make greater use of the American Corners and of program alumni in promoting U.S. educational
opportunities.

Informal Recommendation 5: Embassy Manama should require that the regional security and
the facilities management offices be informed well in advance of terminating a lease.

Informal Recommendation 6: Embassy Manama should require clients to submit motor pool
requests through the automated system.

Informal Recommendation 7: Embassy Manama should require the human resources officer to
classify positions, and in his absence, another embassy officer.

Informal Recommendation 8: Embassy Bahrain should establish a training workshop for
financial management and general service employees in the procurement and travel units to
improve communication among them.

Informal Recommendation 9: Embassy Manama should reduce the number of obligations
established and then canceled.

Informal Recommendation 10: Embassy Manama should implement a representation plan.

Informal Recommendation 11: Embassy Manama should conduct drills outlined in its
emergency destruction plan.

Informal Recommendation 12: Embassy Manama should request host government approval
for the VHF/UHF radio frequencies it currently uses.

Informal Recommendation 13: Embassy Manama should implement mailroom standard
operating procedures. (Action: Embassy Manama)


                                      40
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Informal Recommendation 14: Embassy Manama should establish clear tuition and billing
arrangements with the Bahrain School and convey these to incoming families.

Informal Recommendation 15: Embassy Manama should complete an overtime analysis for
FY 2013 and share the results with supervisors and with the International Cooperative
Administrative Support Services council.

Informal Recommendation 16: Embassy Manama should determine the correct contract to use
in hosting the cafeteria operation and implement the appropriate agreement.

Informal Recommendation 17: Embassy Manama should implement a standard operating
procedure for gifts disposition.




                                    41
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                     Name        Arrival Date
Ambassador                                  Thomas Krajeski              10/11
Deputy Chief of Mission                     Timothy Pounds               03/13
Chiefs of Sections:
  Management                                    Daniel Stoian           08/11
  Consular                                   Daniela DiPierro           05/12
  Political                                  Stephanie Hallett          08/13
  Economic                                  Rebecca Seweryn             06/13
  Public Affairs                            Bradley Niemann             08/10
  Regional Security                              Robert Helm            09/12
Other Agencies:
  Department of Defense                       Col John West             04/12




                                      42
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED



Abbreviations

CLO              Community liaison office

DCM              Deputy chief of mission

Department       Department of State

EEO              Equal Employment Opportunity

EFM              Eligible family member

FAH              Foreign Affairs Handbook

FAST             First- and second-tour

ICASS            International Cooperative Administrative Support Services

IM               Information management

LE               Locally employed

PAO              Public affairs officer

SMART            State Messaging and Archive Retrieval Toolset




                            43
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED





 FRAUD, WASTE, ABUSE,

 OR MISMANAGEMENT

OF FEDERAL PROGRAMS

   HURTS EVERYONE.


         CONTACT THE

 OFFICE OF INSPECTOR GENERAL

            HOTLINE

      TO REPORT ILLEGAL

   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General

    U.S. Department of State

         P.O. Box 9778

      Arlington, VA 22219





 SENSITIVE BUT UNCLASSIFIED

